No. 19-1138
================================================================================================================

In The

Supreme Court of the United States
-----------------------------------------------------------------DEWAYNE KNIGHT,
Petitioner,
v.
THOMAS GROSSMAN, JR., M.D.,
Respondent.
-----------------------------------------------------------------On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Seventh Circuit
-----------------------------------------------------------------BRIEF FOR RESPONDENT
DR. THOMAS GROSSMAN, JR. IN OPPOSITION
-----------------------------------------------------------------JASON J. FRANCKOWIAK
Counsel for Respondent
Dr. Thomas Grossman, Jr.
20935 Swenson Drive
Suite 310
Waukesha, WI 53186
(262) 777-2200
jfranckowiak@otjen.com
================================================================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

i
QUESTION PRESENTED
The Seventh Circuit endorsed a patient’s limited
right to receive medical information under the Fourteenth Amendment as a corollary to the patient’s right
to refuse unwanted medical treatment, and adopted
the standard articulated by the Second Circuit in
Pabon v. Wright, 459 F.3d 241 (2006). Is the standard
adopted by the Seventh Circuit, which requires a
showing of something more than negligence or gross
negligence, as well as actual injury to the patient’s
right to refuse medical treatment in order to prove a
violation of the patient’s right to medical informed consent, consistent with due process jurisprudence under
the Fourteenth Amendment?

ii
CORPORATE DISCLOSURE STATEMENT
Appellate Court No. 19-1740
Short Caption:
Grossman, Jr., M.D.

DeWayne Knight v. Thomas

(1) The full name of every party that the attorney represents in the case:
Thomas Grossman, Jr., M.D.
(2) The names of all law firms whose partners or associates have appeared for the party in the case or
are expected to appear for the party in this court:
Otjen Law Firm, S.C.
(3) If the party or amicus is a corporation: N/A
i)

Identify all its parent corporations, if any; and
N/A

ii)

List any publicly held company that owns
10% or more of the party’s or amicus’ stock:
N/A

iii
CORPORATE DISCLOSURE STATEMENT
– Continued
Please indicate if you are Counsel of Record for the
above listed parties pursuant to Circuit Rule 3(d).
Yes

x

Address:

No ___
20935 Swenson Drive, Suite 310
Waukesha, Wisconsin 53186

Phone No.: (262) 777-2200
Fax No.:

(262) 777-2201

E-mail:

jfranckowiak@otjen.com

STATEMENT OF RELATED PROCEEDINGS
DeWayne D. Knight v. Thomas Grossman, Jr.,
M.D., No. 2:16-cv-01644, U.S. District Court for the
Eastern District of Wisconsin. Judgment entered
March 21, 2019.
DeWayne D. Knight v. Thomas W. Grossman, Jr.,
M.D., No. 19-1740, U.S. Court of Appeals for the Seventh Circuit. Judgment entered October 31, 2019.
Petition for Rehearing En Banc denied December
17, 2019.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED...................................

i

CORPORATE DISCLOSURE STATEMENT ......

ii

STATEMENT OF RELATED PROCEEDINGS ....

iii

TABLE OF CONTENTS ......................................

iv

TABLE OF AUTHORITIES .................................

vi

JURISDICTION ...................................................

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED IN THE CASE ..................

1

STATEMENT OF THE CASE..............................

2

A.

DeWayne Knight’s Treatment with Dr.
Grossman ...................................................

2

Proceedings Below .....................................

5

SUMMARY OF ARGUMENT ..............................

6

ARGUMENT ........................................................

9

B.

I.

This Case Is an Inappropriate Vehicle
Through Which to Address the Issues Advanced by the Petitioner ............................

9

A. The Seventh Circuit’s Decision Resolved Petitioner’s Appeal on an Alternative Ground That Did Not Require
the Court to Reach the Issue of Deliberate Indifference, and Thus Does not
Squarely Present the Issue that Petitioner Now Urges This Court to Address.....................................................

9

v
TABLE OF CONTENTS – Continued
Page
B. The Seventh Circuit’s Adoption of a
Standard Incorporating a Requirement
That a Patient Would Have Refused
the Proposed Treatment Had He Been
Fully Informed Is Consistent With
This Court’s Longstanding Jurisprudence .................................................... 11
II.

The Standard Adopted by the Seventh
Circuit Is Consistent With This Court’s
Fourteenth Amendment Due Process Jurisprudence ................................................ 14

III.

There Exists No “Split” Amongst the Circuits on the Showing Required in Order
to Prove a Violation of a Patient’s Right
Under the Fourteenth Amendment to Information Sufficient to Allow the Patient
to Knowledgeably Exercise His Right to
Refuse Medical Treatment ........................ 20

CONCLUSION..................................................... 33

vi
TABLE OF AUTHORITIES
Page
CASES
Archie v. Racine,
847 F.2d 1211 (7th Cir. 1988) ..................................15
Bee v. Greaves,
744 F.2d 1387 (10th Cir. 1984) .................... 21, 31, 32
Benson v. Terhune,
304 F.3d 874 (9th Cir. 2002) ............................ passim
Cruzan v. Dir., Mo. Dep’t of Health,
497 U.S. 261, 110 S. Ct. 2841 (1990) .... 20, 22, 23, 24, 25
Cty. of Sacramento v. Lewis,
523 U.S. 833, 118 S. Ct. 1708 (1998) ............... passim
Daniels v. Williams,
474 U.S. 327, 106 S. Ct. 662 (1986) ...................... passim
Davidson v. Cannon,
474 U.S. 344, 106 S. Ct. 668 (1986) ....... 16, 18, 19, 20
Hannemann v. Boyson,
2005 WI 94, 282 Wis. 2d 664, 698 N.W.2d 714 .......19
Lewis v. Casey,
518 U.S. 343, 116 S. Ct. 2174 (1996) ....... 8, 12, 13, 14
Lyons v. Traquina,
2010 WL 3069336 (E.D. Cal. August 3, 2010) ........30
McDowell v. Vill. of Lansing,
763 F.3d 762 (7th Cir. 2014) ....................................15
Norfleet v. Webster,
439 F.3d 392 (7th Cir. 2006) .............................. 26, 30
Pabon v. Wright,
459 F.3d 241 (2d Cir. 2006) ............................. passim

vii
TABLE OF AUTHORITIES – Continued
Page
Sain v. Wood,
512 F.3d 886 (7th Cir. 2008) .............................. 26, 30
Sama v. Hannigan,
669 F.3d 585 (5th Cir. 2012) ........................ 21, 28, 29
United States v. Charters,
829 F.2d 479 (4th Cir. 1987) ........................ 21, 27, 28
White v. Napoleon,
897 F.2d 103 (3d Cir. 1990) ............................. passim
STATUTES
28 U.S.C. § 1254(1) ........................................................1
42 U.S.C. § 1983 ............................................................5
§ 448.30 Wis. Stats. .....................................................19
CONSTITUTIONAL PROVISIONS
U.S. Const. Amend VIII ...................................... passim
U.S. Const. Amend XIV ....................................... passim

1
JURISDICTION
The judgment of the Seventh Circuit Court of
Appeals was entered on October 31, 2019. The Seventh
Circuit’s order denying Appellant DeWayne Knight’s
request for rehearing en banc was entered on December 17, 2019. The Petition for a Writ of Certiorari was
filed on March 13, 2020. Respondent’s request for an
extension of time to file a response to the petition was
made on April 3, 2020, and was granted by the Office
of the Clerk of the United States Supreme Court on
April 6, 2020, extending the time for the filing of a response to the Petition for Certiorari to and including
June 17, 2020. This Court’s jurisdiction rests on 28
U.S.C. § 1254(1).
------------------------------------------------------------------

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED IN THE CASE
The Fourteenth Amendment to the United States
Constitution (U.S. Const. amend. XIV) provides, in pertinent part:
“No State shall make or enforce any law
which shall abridge the privileges or immunities of citizens of the United States; nor shall
any State deprive any person of life, liberty, or
property, without due process of law; nor deny
to any person within its jurisdiction the equal
protection of the laws.”
------------------------------------------------------------------

2
STATEMENT OF THE CASE
A.

DeWayne Knight’s Treatment with Dr.
Grossman.

While serving a sentence at the Waupun Correctional Institution, DeWayne Knight sought treatment
in 2009 for a basketball injury to his left knee. App.
20a. Prison staﬀ referred Knight to Dr. Thomas Grossman, who worked at a hospital that contracted with
the Wisconsin Department of Corrections (DOC) to
provide medical services to state prisoners. App. 19a20a. Dr. Grossman diagnosed Knight with a tear in
his anterior cruciate ligament and performed reconstruction surgery on July 26, 2010. This surgery was
successful and is not at issue in this petition. App. 20a21a.
Knight subsequently reinjured his knee and was
returned by the DOC to Dr. Grossman for treatment
in 2003. App. 21a. Dr. Grossman examined Knight, ordered x-rays, and diagnosed him with a torn ACL revision. App. 21a. Dr. Grossman oﬀered Knight the option
of undergoing a revision procedure to repair the tear.
App. 21a. In doing so, he issued a series of disclaimers,
explaining that the surgery was elective and not
strictly necessary, involved certain risks, and did not
carry with it a guarantee that it would resolve Knight’s
pain. App. 21a-22a. Knight agreed to the surgery and
opted for a type of reconstruction procedure that would
require Dr. Grossman to open both knees and to transplant tissue from Knight’s healthy right knee into his
damaged left knee. App. 23a-24a.

3
On the day of the surgery, Knight signed a consent
form authorizing a “[r]evision left anterior cruciate reconstruction with donor site from right knee.” App. 23a.
The form also provided that if unforeseen conditions
arose during the surgery which, in Dr. Grossman’s
judgment, required additional or diﬀerent procedures,
he had Knight’s consent to take any further steps
“deemed necessary and advisable.” App. 23a.
Upon opening Knight’s left knee, Dr. Grossman
encountered a diﬀerent condition than he had anticipated – Knight’s ACL was intact, not torn. App. 24a.
Dr. Grossman, however, observed other issues with
Knight’s left knee, including surface damage to the cartilage (grade three changes to the trochlea), narrowing
of the space between the two bumps at the end of the
thigh bone (dense stenosis on the lateral side on the
intercondylar notch, with a small bone fragment), and
bony overgrowths on the kneecap (patellar osteophytosis). App. 24a. Dr. Grossman determined that what he
was seeing was consistent with degenerative joint disease, or arthritis, and would explain why Knight was
experiencing pain in his left knee. App. 24a.
As an experienced orthopedic surgeon, Dr. Grossman knew immediately that there were several procedures that were less invasive than the one to which Mr.
Knight consented in writing, and that could be used to
address the pathology that he was observing. App. 24a.
He could continue operating by using the two small
incisions that had already been made to Knight’s left
knee to perform a series of arthroscopic surgical procedures. App. 24a. A procedure known as a chondroplasty

4
would remove the damaged tissue and a second procedure, a notchplasty, would enlarge the narrowed gap to
address the thigh-bone issue. App. 4a. On the kneecap,
Dr. Grossman could perform an abrasion arthroplasty
– a procedure, as described in the medical literature,
that required shaving the bone to a degree that stimulated the bone marrow to generate new cartilage. App.
4a.
At this point, Dr. Grossman found himself with a
choice to make: with Knight unconscious on the operating table, he could close Knight’s knee and end the
operation, which would leave Mr. Knight’s symptoms
unaddressed. Alternatively, Dr. Grossman could move
forward with the procedures he had not discussed with
Knight, but believed would help him. Dr. Grossman
chose to keep operating. App. 25a. He later explained
that he did so because he believed the alternative procedures would address Knight’s condition, and also because it was unclear if or when Knight, as a prisoner,
would be made available by the DOC for surgery again.
App. 25a.
Knight woke up in the recovery room to find that
only his left knee had been operated on. App. 5a. Upon
Knight’s discharge from the hospital, Dr. Grossman
sent his operative note and recovery instructions to the
prison’s medical unit. App. 5a. The note explained what
Dr. Grossman had observed, including Knight’s intact
ACL, and identified the procedures he had performed.
App. 5a.

5
B.

Proceedings Below

Following his surgery, Knight brought suit against
Dr. Grossman under 42 U.S.C. § 1983, claiming that
the surgery that Dr. Grossman had performed upon his
knee violated his Eighth and Fourteenth Amendment
rights. Dr. Grossman moved for summary judgment on
both claims, and the District Court granted summary
judgment on each. App. 31a-32a; App. 37a-38a.
Knight appealed the District Court’s grant of summary judgment to the Seventh Circuit, arguing that
the District Court had improperly granted summary
judgment on both the Eighth Amendment claim and on
Knight’s informed consent claim under the Fourteenth
Amendment. The Seventh Circuit upheld summary
judgment on Knight’s Eighth Amendment claim, a conclusion that Knight does not challenge in his Petition
for Certiorari.
On Knight’s Fourteenth Amendment claim, the
Seventh Circuit joined all other circuits that have
considered the question, and held that prisoners have
a right to informed consent under the Fourteenth
Amendment. App. 11a. In doing so, the Seventh Circuit
adopted the standard articulated by the Second Circuit
in Pabon v. Wright, 459 F.3d 241 (2d Cir. 2006), for
evaluating a prisoner’s claim alleging a violation of
his right to informed consent under the Fourteenth
Amendment.
The Pabon standard requires a prisoner, in order
to establish a violation of his right to informed consent
under the Fourteenth Amendment, to prove that: 1) he

6
was deprived of information that a reasonable patient
would deem necessary to make an informed decision
about his medical treatment; 2) the defendant acted
with deliberate indifference to the prisoner’s right to
refuse treatment; and 3) if the prisoner had received
the information, he would have refused the treatment.
App. 15a. If the prisoner establishes these three elements, thus proving that his right to informed consent
has been violated, the Pabon standard includes a second and final step, which requires the court to balance
the prisoner’s right to informed consent against countervailing state interests. App. 15a.
The Seventh Circuit, below, stopped short of making a determination one way or another as to whether
Dr. Grossman had acted with deliberate indifference
to Mr. Knight’s right to refuse treatment. Instead, the
Seventh Circuit upheld the District Court’s grant of
summary judgment on an alternative basis, i.e., that
Knight had failed to show that he would have refused
the surgical procedure even had he been fully informed. App. 16a.
Knight subsequently petitioned the Seventh Circuit for a rehearing en banc, which was denied. App.
41a.
------------------------------------------------------------------

SUMMARY OF ARGUMENT
DeWayne Knight’s Petition for Certiorari should
be denied. First, the question presented in Knight’s
petition is whether a claim alleging a violation of a

7
patient’s Fourteenth Amendment right to informed
consent requires a showing of deliberate indifference.
In the instant case, however, the Seventh Circuit pointedly stopped short of resolving Knight’s appeal upon a
determination that Dr. Grossman had or had not
acted with deliberate indifference to Knight’s right to
refuse treatment. Instead, the Seventh Circuit upheld
summary judgment on an alternative basis – Knight
had not established that he would have refused the
surgical procedure even had he been fully informed.
Because the Seventh Circuit did not reach the issue of
deliberate indifference in upholding summary judgment, this petition does not squarely present the primary question upon which Knight seeks the
intervention of this Court.
Second, Petitioner contends that the standard
adopted by the Seventh Circuit, which incorporates a
requirement that he demonstrate that he would have
refused the surgery in question had he been fully informed, was improper. This contention, however, fails
to recognize that a patient’s right to medical information is not an independent right, but is instead derivative of the patient’s right to refuse treatment.
Pabon, 459 F.3d 241, 251 (2d Cir. 2006). Because
Knight’s right to receive information was merely derivative of his right to refuse medical treatment, his failure to establish that he would have refused the surgery
in question, even if he had been given all pertinent information, necessarily means that he could not prove
that his right to refuse treatment had been impaired.
In the absence of proof that Knight’s right to refuse

8
medical treatment had been impaired, the alleged deprivation of medical information was of no consequence.
Lewis v. Casey, 518 U.S. 343, 349, 116 S. Ct. 2174, 2179
(1996).
Third, the Pabon standard adopted by the Seventh
Circuit is consistent with this Court’s jurisprudence
addressing the conduct required in order to establish a
claim under the Due Process Clause of the Fourteenth
Amendment. This Court has long recognized that the
touchstone of due process is protection from arbitrary
governmental action, and that only the most egregious
official conduct is “arbitrary” in a constitutional sense.
Cty. of Sacramento v. Lewis, 523 U.S. 833, 842, 845, 118
S. Ct. 1708, 1714 (1998). Liability for negligently inflicted harm is beneath the threshold of constitutional
due process. Id. at 849. A showing of deliberate indifference in a prison health care context is necessary in
order to demonstrate conduct that rises to the necessary “conscience-shocking” level, thereby preserving
the constitutional proportions of substantive due process. Id.
Fourth, there is no “circuit split” on the standard
governing a patient’s right to medical information under the Fourteenth Amendment. The Seventh Circuit’s
conclusion that an individual has a limited right to
medical information necessary to make an informed
decision on medical matters is consistent with the conclusion of all courts that have considered the issue, and
none of the cases cited by Petitioner from the Third,
Fourth, Fifth, Ninth, or Tenth Circuits articulates any
formal “standard” that is contrary to, or irreconcilable

9
with, the standard articulated by the Second Circuit in
Pabon, and adopted by the Seventh Circuit in this case.
For all of these foregoing reasons, the Court should
deny certiorari.
------------------------------------------------------------------

ARGUMENT
I.

This Case Is an Inappropriate Vehicle
Through Which to Address the Issues Advanced by the Petitioner.
A. The Seventh Circuit’s Decision Resolved
Petitioner’s Appeal on an Alternative
Ground That Did Not Require the Court
to Reach the Issue of Deliberate Indifference, and Thus Does Not Squarely Present the Issue that Petitioner Now Urges
This Court to Address.

The primary question presented, as framed by
the Petitioner, is “whether a claim for violation of a
prisoner-patient’s Fourteenth Amendment right to informed consent requires a showing of deliberate indifference. . . .” Petitioner argues that the Seventh Circuit
improperly imported a “deliberate indifference” requirement into the standard governing a patient’s
claim alleging a violation of his/her right to medical informed consent under the Fourteenth Amendment.
The Seventh Circuit’s resolution of Petitioner’s appeal, however, did not pivot upon a determination that
Dr. Grossman had or had not acted with deliberate

10
indifference to Mr. Knight’s right to refuse treatment.
Instead, the Seventh Circuit expressly resolved Petitioner’s appeal on a different ground, i.e., that Petitioner Knight had failed to establish that he had
suffered actual injury to his right to refuse medical
treatment:
We question whether Knight has sufficiently
shown that Dr. Grossman was deliberately indifferent to his right to refuse treatment, particularly given the scope of the consent form.
But we can stop short of answering that question because, at the very least, Knight failed
to show that he would have refused the only
procedure he contests (the abrasion arthroplasty) had he been fully informed. . . .
App. 16a.
Petitioner invites this Court to decide “whether a
claim for violation of a prisoner-patient’s Fourteenth
Amendment right to informed consent requires a
showing of deliberate indifference.” Deciding the question that the Petitioner wants the Court to address,
however, would not change the outcome of the appeal,
because the Seventh Circuit’s decision was expressly
based on other grounds. The Seventh Circuit resolved
Petitioner’s appeal without ever reaching the question
of whether Dr. Grossman acted with deliberate indifference to Knight’s right to refuse treatment. The instant petition does not squarely present the issue that
Petitioner wishes this Court to decide, and is therefore
not an appropriate vehicle through which to address

11
the issue urged by the Petitioner. Certiorari should be
denied.
B. The Seventh Circuit’s Adoption of a
Standard Incorporating a Requirement
That a Patient Would Have Refused the
Proposed Treatment Had He Been Fully
Informed Is Consistent With This Court’s
Longstanding Jurisprudence.
Petitioner perfunctorily challenges the Seventh
Circuit’s adoption of a requirement that a patient
claiming a violation of his right to informed consent
under the Fourteenth Amendment establish that he
would have refused the treatment in question had he
been fully informed. See Petition for Certiorari, p. 14.
The Seventh Circuit, below, recognized a patient’s
right under the Fourteenth Amendment to informed
consent and adopted the standard articulated by the
Second Circuit in Pabon v. Wright to assess a patient’s
claim that his right to informed consent under the
Fourteenth Amendment had been violated. The Second
Circuit, in Pabon, recognized that a patient’s right to
medical information is not, in and of itself, an independent right. Pabon, 459 F.3d 241, 251 (2d Cir. 2006).
Instead, it is a right that is derivative of the patient’s
underlying right to refuse medical treatment. Therefore, the right to medical information extends only to
those circumstances in which it will effectuate the
patient’s exercise of his underlying right to refuse
treatment. Id. Relying upon the rationale articulated

12
by this Court in its decision in Lewis v. Casey, 518 U.S.
343, 116 S. Ct. 2174 (1996), the Second Circuit, in
Pabon, concluded:
. . . [A] prisoner must be able to establish that
the underlying right at stake – the right to
refuse treatment – actually was impaired by
the state’s failure to impart necessary information to the prisoner-patient. If a prisoner
still would have accepted the proposed treatment, even if he had been given all of the necessary information regarding that treatment,
then his right to refuse treatment has not
been impaired, and the deprivation of medical
information is of no consequence.
Pabon, 459 F.3d at 251-52. The Seventh Circuit’s adoption of the standard articulated in Pabon, which requires that a patient establish an impairment of his
right to refuse treatment before he can state a violation of his limited, derivative right to medical information, is fully consistent with this Court’s
jurisprudence.
This court, in Lewis v. Casey, 518 U.S. 343, addressed the question of prison inmate access to the
courts. The case involved allegations that the prison
law library provided for the use of the petitioner inmates was inadequate, and therefore violated the petitioners’ constitutional right of access to the courts. This
Court recognized, however, that a prison law library is
not an end in itself, but is instead a means to ensure
that inmates are provided with constitutionally adequate access to the courts. This Court, in Lewis, noted

13
that it was not sufficient for the petitioner inmates to
merely prove that their prison law library was “inadequate.” Instead, an inmate “must go one step further
and demonstrate that the alleged shortcomings in the
library or legal assistance program hindered his efforts
to pursue a legal claim.” Lewis v. Casey, 518 U.S. at 351.
In making this observation, this Court drew an analogy that is particularly apt in the present case:
. . . If – to take another example from prison
life – a healthy inmate who had suffered no
deprivation of needed medical treatment were
able to claim violation of his constitutional
right to medical care . . . , simply on the
ground that the prison medical facilities were
inadequate, the essential distinction between
judge and executive would have disappeared:
it would have become the function of the
courts to assure adequate medical care in
prisons.
Id. at 350.
This analogy is on point in the context of the instant Petition for Certiorari. Petitioner’s right to medical information under the Fourteenth Amendment is
not an end in itself, but is instead simply a means to
facilitate his ability to knowledgeably exercise his underlying right to accept or decline medical treatment.
An inmate who would not have refused the proposed
medical treatment even if fully informed has suffered
no deprivation or injury to his right to refuse treatment. In the absence of a deprivation of an inmate’s
right to refuse treatment, the inmate’s allegation that

14
he had been deprived of medical information is of no
consequence.
As this Court stated in Lewis v. Casey:
“It is the role of courts to provide relief to
claimants, in individual or class actions, who
have suffered, or will imminently suffer, actual harm; it is not the role of courts, but that
of the political branches, to shape the institutions of government in such fashion as to comply with the laws and the Constitution.”
Id. at 349. The requirement adopted by the Seventh
Circuit that a patient must establish an impairment of
his right to refuse treatment (by showing that he
would have refused treatment if he had been fully informed) in order to make out a violation of the patient’s
right to medical information under the Fourteenth
Amendment, is both consistent with, and crucial to,
this Court’s longstanding requirement that an individual establish “actual injury” in order to state a claim.
Certiorari should be denied.
II.

The Standard Adopted by the Seventh Circuit
Is Consistent With This Court’s Fourteenth
Amendment Due Process Jurisprudence.

Petitioner argues that the standard adopted by
the Seventh Circuit to govern a patient’s informed consent claim under the Fourteenth Amendment is improper because that standard requires a patient to
prove that the defendant physician acted with “deliberate indifference” to the patient’s right to refuse

15
treatment. Contrary to the petitioner’s contention,
however, the “deliberate indifference” standard is consistent with this Court’s jurisprudence on the Fourteenth Amendment, particularly in the context of
prison medical care.
This Court has long noted that the touchstone of
due process is protection from arbitrary action. Cty. of
Sacramento v. Lewis, 523 U.S. 833, 845, 118 S. Ct. 1708
(1998). Only the most egregious conduct is “arbitrary”
in a constitutional sense. Id. at 846. For half a century,
this Court has recognized that the cognizable level of
conduct necessary in a Fourteenth Amendment analysis is conduct that “shocks the conscience.” Id. Due
Process does not entail a body of constitutional law
imposing liability whenever any individual cloaked
with state authority causes harm. Id. at 848. The Fourteenth Amendment is not a font of tort law to be imposed upon systems already administered by the
states, and the United States Constitution does not
guarantee due care on the part of state officials. Id. at
848-49.
This Court has held unequivocally that injury
caused by merely negligent conduct is not a “deprivation” under the Fourteenth Amendment. Daniels v.
Williams, 474 U.S. 327, 333, 106 S. Ct. 662, 666 (1986).1
A simple lack of due care does not approach the level
of abusive government conduct that the Due Process
1

Even gross negligence is not sufficient to support a substantive Due Process Claim. McDowell v. Vill. of Lansing, 763 F.3d
762, 766 (7th Cir. 2014); citing Archie v. Racine, 847 F.2d 1211,
1219-20 (7th Cir. 1988) (en banc).

16
Clause was designed to prevent. Davidson v. Cannon,
474 U.S. 344, 347-48, 106 S. Ct. 668, 670 (1986). A holding that injury caused by merely negligent conduct
constitutes a “deprivation” under the Fourteenth
Amendment would trivialize the principle of due process. Daniels, 474 U.S. at 333. The Constitution deals
with large concerns of governors and governed, and
does not supplant traditional tort law. Id.
The standard articulated by the Second Circuit in
Pabon, 459 F.3d 251, and subsequently adopted by the
Seventh Circuit in this case, was built directly upon
this Court’s repeated recognition of the importance of
preserving the constitutional proportions of substantive due process. The Second Circuit, in Pabon, specifically relied upon the principles espoused by this Court
in Daniels v. Williams; Davidson v. Cannon; and Cty. of
Sacramento. See Pabon, 459 F.3d at 250-51.
In Cty. of Sacramento v. Lewis, this Court stated:
To recognize a substantive due process violation in these circumstances when only midlevel fault has been shown would be to forget
that liability for deliberate indifference to inmate welfare rests upon the luxury enjoyed by
prison officials of having time to make unhurried judgments, upon the chance for repeated
reflection, largely uncomplicated by the pulls
of competing obligations. When such extended
opportunities to do better are teamed with
protracted failure to even care, indifference is
truly shocking. . . .

17
Cty. of Sacramento v. Lewis, 523 U.S. at 853. The Second Circuit’s inclusion of a “deliberate indifference” requirement in the standard that it articulated in Pabon
was consciously based upon the rationale espoused by
this Court in Cty. of Sacramento v. Lewis, supra:
. . . In establishing this dichotomy, County of
Sacramento strongly suggests that in those
circumstances when actual deliberation is
possible, a showing of deliberate indifference
will establish Fourteenth Amendment liability. . . . Following the reasoning of County of
Sacramento, we hold that in order to incur liability a prison official’s failure to adequately
inform a patient regarding that patient’s proposed medical treatment must be done with,
at a minimum, deliberate indifference to the
prisoner’s right to refuse treatment and that
simple negligence will not suffice.
Pabon, 459 F.3d at 251. The Seventh Circuit, below,
adopted the standard articulated by the Second Circuit
in Pabon, which was, itself, based upon the considered
rationale earlier laid out by this Court in Daniels v.
Williams, Davidson v. Cannon, and Cty. of Sacramento
v. Lewis.
Petitioner’s argument, on the other hand, pays no
heed to this Court’s concern for protecting the constitutional proportions of substantive due process under
the Fourteenth Amendment. Petitioner’s argument
that a Fourteenth Amendment right to informed consent should be assessed solely under a generic “balancing test” which weighs a state’s interest against a

18
prisoner patient’s “right to information” leaves open
the possibility that merely negligent conduct might be
deemed a Fourteenth Amendment violation, if, for example, a prisoner patient’s “right to information” were
determined to outweigh the state’s interests. Such an
outcome would be contrary to this Court’s precedents,
which hold unequivocally that merely negligent conduct cannot rise to the level of a Fourteenth Amendment violation. See Daniels, 474 U.S. at 333; see also
Davidson, 474 U.S. at 347-48.
Petitioner’s argument appears to conflate a patient’s right to medical information under the Fourteenth Amendment with an “informed consent” claim
under state tort law. The hypothetical example provided in the Petition for Certiorari proves as much.
That hypothetical is presented as follows:
As an example to illustrate how a deliberate
indifference requirement is untenable, under
the framework adopted by the Second and
Seventh Circuits, a doctor who accidentally
performs the wrong surgery on a patient, of
which the patient is unaware, has somehow
preserved the patient’s right to informed consent to that same procedure. This conclusion
is incongruous with the right to informed consent.
See Petition for Certiorari, p. 12.
This hypothetical proffers an example of negligent
conduct by a physician (i.e., “a doctor who accidentally
performs the wrong surgery”). Negligent conduct is
not sufficient to support a Fourteenth Amendment

19
violation. Daniels, 474 U.S. at 333; Davidson, 747 U.S.
at 347-48. This hypothetical conduct could, however,
potentially support a claim for medical malpractice, or
an informed consent claim under Wisconsin state law.
A physician’s failure to obtain a patient’s informed consent is a species of medical malpractice under Wisconsin law. Hannemann v. Boyson, 2005 WI 94, ¶ 40, 282
Wis. 2d 664, 688, 698 N.W.2d 714, 726. A patient’s right
to medical informed consent under Wisconsin state
tort law is addressed under § 448.30 of the Wisconsin
statutes.2
The patient in Petitioner’s hypothetical is not
without remedy. The remedy under the proffered hypothetical, however, lies not under the Fourteenth
Amendment, but under Wisconsin state tort law. Petitioner Knight chose to bring suit in federal court under
the Eighth and Fourteenth Amendments, and in doing
so, he elected not to assert any claim for medical malpractice under Wisconsin state tort law. Petitioner’s
strategic choice to advance his claim under the Fourteenth Amendment rather than under Wisconsin state
law, however, does not obviate the duty of federal
courts to preserve the constitutional proportions of a
due process claim brought under the Fourteenth
Amendment. Simply because a patient in Mr. Knight’s
position cannot prove that a physician’s conduct rose
to the level of “deliberate indifference,” the federal
2

§ 448.30 Wis. Stats. provides, in relevant part: “Any physician who treats a patient shall inform the patient about the availability of reasonable alternate medical modes of treatment and
about the benefits and risks of these treatments. . . .”

20
judiciary is not thereby granted dispensation to accommodate the patient’s claim by simply ignoring established Due Process jurisprudence, which plainly
requires conduct that “shocks the conscience” to support a Due Process claim.
The deliberate indifference requirement incorporated into the standard adopted by the Seventh Circuit, below, is consistent with this Court’s precedent.
See Daniels, 474 U.S. 327; Davidson, 474 U.S. 344; Cty.
of Sacramento, 523 U.S. 833. Certiorari should be denied.
III. There Exists No “Split” Amongst the Circuits on the Showing Required in Order to
Prove a Violation of a Patient’s Right Under the Fourteenth Amendment to Information Sufficient to Allow the Patient to
Knowledgeably Exercise His Right to Refuse Medical Treatment.
The Petitioner attempts to manufacture a “split”
between the circuits where none exists on the standard
governing a patient’s right under the Fourteenth
Amendment to information necessary for the patient
to knowledgeably exercise his right to decline medical
treatment. The Petitioner asserts that “the majority of
circuits” have addressed a prisoner-patient’s Fourteenth Amendment right to informed consent under a
“balancing test” laid out by this Court in Cruzan v. Dir.,
Mo. Dep’t of Health, 497 U.S. 261, 110 S. Ct. 2841
(1990). Petitioner contends that this alleged “majority
circuit approach” weighs, on the one hand, the state’s

21
interest in providing for the basic needs of prisoners
versus, on the other hand, the prisoner’s right to such
information as is reasonably necessary to make an informed decision to accept or reject proposed treatment.
See Petition for Certiorari, pp. 4-5. On the other side of
the ledger, Petitioner places the Second Circuit, which
articulated the standard set forth in Pabon v. Wright,
459 F.3d 241 (2d Cir. 2006), and the Seventh Circuit,
which adopted the Pabon standard in this case.
The crux of Petitioner’s contention is that the
Third, Fourth, Fifth, Ninth, and Tenth Circuits have
each allegedly recognized and adhered to a formal
standard for assessing a patient’s right to medical information under the Fourteenth Amendment that is
both different from, and irreconcilable with, the standard articulated in Pabon. As exemplars of this alleged
“circuit split,” the Petitioner points to White v. Napoleon, 897 F.2d 103 (3d Cir. 1990); United States v. Charters, 829 F.2d 479 (4th Cir. 1987); Sama v. Hannigan,
669 F.3d 585 (5th Cir. 2012); Benson v. Terhune, 304
F.3d 874 (9th Cir. 2002); and Bee v. Greaves, 744 F.2d
1387 (10th Cir. 1984).
Petitioner’s faulty dichotomy is apparent from the
outset. Petitioner’s “circuit split” argument presupposes that the Third, Fourth, Fifth, Ninth, and Tenth
Circuits (which Petitioner characterizes as the “majority approach”), have established that a patient’s Fourteenth Amendment right to medical information
should be assessed under a “balancing test” in which a
court simply weighs the patient’s right to information
against the state’s countervailing interests, while the

22
Second Circuit and the Seventh Circuit (characterized
by Petitioner as the “minority approach”), follow a different path, requiring a determination of “deliberate
indifference.” This argument, however, fails to recognize that the Pabon standard also incorporates a balancing of a prisoner’s right to informed consent against
countervailing state interests – as the second step of
a two-step inquiry. Petitioner’s contention that the approach of the Third, Fourth, Fifth, Ninth, and Tenth
Circuits irreconcilably differs from that of the Second
and Seventh Circuits (under the false assumption that
the former group of circuits applies a “balancing test”
between a patient’s right to information and the state’s
countervailing interests, while the latter two circuits
do not) is fundamentally flawed. Even if it were assumed that the Third, Fourth, Fifth, Ninth, and Tenth
Circuits adhere to a “test” which requires a balancing
of a patient’s right to information against countervailing state interests, such does not represent a distinction from the standard articulated in Pabon, which
also specifically incorporates such a balancing. See
Pabon, supra, at 252; see also App. 15a.
Moreover, Petitioner’s argument at its base,
simply assumes that this Court, in Cruzan, 497 U.S.
261, laid out a specific formal “balancing test” that was
intended henceforth to govern any claim asserting a
violation of a patient’s right to medical information
necessary to that patient’s exercise of his/her right to
refuse medical treatment. Petitioner’s argument also
assumes that the Third, Fourth, Fifth, Ninth, and
Tenth Circuits have consistently employed a formal

23
“balancing test” drawn from Cruzan, to address claims
alleging a violation of a patient’s right under the Fourteenth Amendment to information necessary to allow
the patient to exercise his right to refuse medical treatment. Petitioner’s assumptions are faulty, and he mischaracterizes the cases upon which he relies in his
attempt to manufacture a purported “circuit split”
where none exists.
As an initial matter, this Court in Cruzan, 497 U.S.
261, never took up the question of the appropriate
standard to govern a patient’s right under the Fourteenth Amendment to information sufficient to allow
that patient to exercise his right to refuse medical
treatment. The Petitioners in Cruzan were parents suing on their own behalf and on behalf of their incapacitated adult daughter, who requested a court order
directing the withdrawal of their daughter’s artificial
feeding and hydration equipment after she had been
rendered vegetative in an auto accident. This Court, in
Cruzan, recognized the principle that a competent person has a constitutionally protected liberty interest in
refusing unwanted medical treatment. Cruzan, 497
U.S. at 278. The Cruzan decision, however, never purported to enshrine a formal or exclusive “test” that was
intended to henceforth govern the federal courts’ consideration of a patient’s right to medical information
under the Fourteenth Amendment. The boundaries of
a patient’s constitutional right to medical informed
consent was not an issue that was before the Court in
Cruzan. The Petitioner’s contention that Cruzan promulgated an exclusive, formal “balancing test” that was

24
intended to govern subsequent federal court consideration of the parameters of a patient’s constitutional
right to informed consent under the Fourteenth
Amendment has no foundation.
The Petitioner’s arguments also suggest that the
Second Circuit articulated a standard in Pabon that
somehow runs counter to Cruzan, as well as the decisions of other courts that Petitioner claims have followed Cruzan. The Second Circuit, in Pabon, however,
specifically recognized Cruzan for the proposition that
a “person has a constitutionally protected liberty interest in refusing unwanted medical treatment.” Pabon,
459 F.3d at 249 (quoting Cruzan, 497 U.S. at 278). The
Second Circuit also specifically analyzed and agreed
with two of the very cases held up by Petitioner as ostensible evidence of a “circuit split” – the Third Circuit’s decision in White v. Napoleon, 897 F.2d 103, and
the Ninth Circuit’s decision in Benson v. Terhune, 304
F.3d 874. Pabon, 459 F.3d at 249. The standard articulated by the Second Circuit in Pabon (and subsequently adopted by the Seventh Circuit in this case)
was not developed in opposition to Cruzan, White v.
Napoleon, or Benson v. Terhune, but was instead built
upon these decisions.
Most notably, however, a closer look at the cases
from the Third, Fourth, Fifth, Ninth, and Tenth Circuits upon which the Petitioner relies as evidence of an
ostensible “circuit split” reveals that there does not
exist any “circuit split” on the standard governing a
patient’s right under the Fourteenth Amendment to

25
information necessary to allow the patient to exercise
his right to refuse medical treatment.
The case from the Third Circuit that is relied upon
by the Petitioner, White v. Napoleon, 897 F.2d 103 (3d
Cir. 1990), does not reference Cruzan, and does not articulate a formal “balancing test” for assessing a patient’s constitutional right to information necessary for
the patient to exercise his right to refuse medical treatment. The Third Circuit, in White v. Napoleon, stated
that “ . . . a prisoner’s right to know must be balanced
against valid State interests,” but did not enshrine this
statement as a formal or exclusive “balancing test” to
govern a patient’s right to medical information under
the Fourteenth Amendment, as the Petitioner contends. In fact, the actual standard elucidated by the
Third Circuit in White v. Napoleon relative to an inmate’s right to medical information is essentially identical to the “deliberate indifference” standard. The
Third Circuit stated in relevant part:
. . . The medical care of prison inmates is entrusted to prison doctors, to whose judgment
and training courts owe substantial deference. Courts are ill-equipped to specify the
medical information that must be provided to
prison patients. As in the case of forced treatment of mental patients, courts must exercise
a limited form of review. A prison doctor’s decision to refuse to answer an inmate’s questions about treatment will be presumed valid
unless it is such a substantial departure from
professional judgment, practice or standards

26
as to demonstrate that the doctor did not base
the decision on such a judgment. . . .
White v. Napoleon, 897 F.2d at 113 (emphasis added).
This standard, articulated by the Third Circuit in
White v. Napoleon, is virtually identical to the “deliberate indifference” standard:
To infer deliberate indifference on the basis of
a physician’s treatment decision, the decision
must be so far afield of accepted professional
standards as to raise the inference that it was
not actually based on a medical judgment. . . .
Norfleet v. Webster, 439 F.3d 392, 396 (7th Cir. 2006)
(emphasis added).
. . . A medical professional acting in his professional capacity may be held to have displayed deliberate indifference only if “the
decision by the professional is such a substantial departure from accepted professional
judgment, practice, or standards, as to demonstrate that the person responsible actually did
not base the decision on such a judgment.” . . .
Sain v. Wood, 512 F.3d 886, 895 (7th Cir. 2008) (citations omitted) (emphasis added). The standard laid out
by the Third Circuit in White v. Napoleon to govern a
prison doctor’s disclosure of medical information to his
patient is not contrary to Pabon’s “deliberate indifference” requirement at all. It is, in fact, essentially identical.

27
The case relied upon by Petitioner from the Fourth
Circuit, United States v. Charters, 829 F.2d 479 (4th
Cir. 1987), likewise does not support Petitioner’s contention that a “circuit split” exists. The plaintiff in
Charters was a mentally incompetent prisoner who
challenged an order of the District Court for the Eastern District of Virginia which allowed plaintiff to be
forcibly medicated with antipsychotic medications. The
question on appeal to the Fourth Circuit in Charters
involved a determination as to the conditions under
which a patient in a federal treatment facility may be
unwillingly medicated with antipsychotic drugs. Charters, 829 F.2d at 484. The Fourth Circuit concluded that
a mentally ill pretrial detainee has a constitutionally
protected interest in deciding for himself whether to
accept or forego medical treatment. Id. at 489.
The question before the Fourth Circuit in Charters
arose out of the government’s quest for an order permitting the forcible medication of a pretrial detainee
with antipsychotic drugs. Plaintiff Charters never contended that he was not given information that was necessary in order for him to knowledgeably exercise his
right to refuse medical treatment. The Charters case
was not an “informed consent” case at all. No question
was presented to the Fourth Circuit on the patient’s
right under the Fourteenth Amendment to information
necessary for the patient to exercise his right to accept
or refuse medical treatment.
The Charters case thus does not support the Petitioner’s insinuation of circuit discord on the question
of a patient’s right under the Fourteenth Amendment

28
to information necessary to allow the patient to knowledgeably exercise his right to refuse medical treatment.
The Fourth Circuit, in Charters, never considered that
issue, much less did it approve a formal “balancing
test” to govern a patient’s right to medical information
under the Fourteenth Amendment, as Petitioner contends.
The case from the Fifth Circuit relied upon by the
Petitioner is Sama v. Hannigan, 669 F.3d 585 (5th Cir.
2012). Contrary to Petitioner’s contention, however,
the Fifth Circuit in Sama did not apply a “balancing
test” to assess the plaintiff patient’s right under the
Fourteenth Amendment to information sufficient to
allow her to exercise her right to refuse medical treatment. In fact, the Sama case came to the Fifth Circuit
on the issue of the defendants’ claim to qualified immunity. The question before the Fifth Circuit in Sama
was whether, at the time of the defendants’ conduct,
the law was clearly established that a reasonable official in the defendants’ position would understand that
their conduct had violated Sama’s Fourteenth Amendment due process rights. Sama, 669 F.3d at 594. The
Fifth Circuit ultimately dismissed Sama’s Fourteenth
Amendment claim on the basis that she had not established that the completion of the surgical procedure
performed upon her by the defendant physicians, under the circumstances presented, had violated clearly
established law. Id. at 593. The Fifth Circuit thus resolved Sama’s appeal by concluding that the defendants were entitled to qualified immunity. Id. at 595.
The Sama case does not support plaintiff ’s contention

29
that a “circuit split” exists relative to the standard
governing a patient’s right under the Fourteenth
Amendment to information necessary to allow him to
knowledgeably exercise his right to refuse medical
treatment.
Though the appeal in Sama was resolved on the
issue of qualified immunity, the Fifth Circuit in that
case did also recognize, relying upon this Court’s holding in Cty. of Sacramento v. Lewis, 523 U.S. 833 (1998),
that negligent conduct is categorically insufficient to
deprive an individual of due process protections. Sama,
669 F.3d at 594. The factual background of Sama is
similar to that of Petitioner Knight’s case. It involved
a patient who claimed that the defendant physicians
had exceeded her pre-operative consent, and further
involved defendant physicians who had discovered,
intraoperatively, the existence of pathology that was
not verifiable prior to the commencement of the surgery. Notably, the Fifth Circuit, in Sama, recognized:
. . . This is not the stuff of a substantive due
process violation. No juror could find on this
record anything more than negligence on behalf of the physicians, and negligence is categorically insufficient to deprive someone of
substantive due process protection.
Id. This recognition that a violation of substantive due
process requires a more substantial level of conduct
than mere negligence is also a key rationale underlying the “deliberate indifference” requirement incorporated in the Second Circuit’s Pabon decision, adopted
by the Seventh Circuit in this case.

30
Petitioner also relies upon the case of Benson v.
Terhune, 304 F.3d 874 (9th Cir. 2002), from the Ninth
Circuit. The question in Benson was whether a pretrial
detainee’s ingestion of several medications while in
custody during the course of her criminal trial was
voluntary or involuntary. The Ninth Circuit in Benson
did not set forth a formal “balancing test” purporting
to weigh the state’s interest versus the patient’s right
to information. In fact, the Ninth Circuit specifically
approved the Third Circuit’s decision in White v.
Napoleon, 897 F.2d 103, holding up that decision as “a
reasonable application of Supreme Court precedent
that would plainly extend to a pretrial detainee like
Benson.” Benson, supra, at 885. The Third Circuit, in
White v. Napoleon, of course, had articulated a standard governing the parameters of an inmate’s right to
medical information under the Fourteenth Amendment that was virtually identical to the “deliberate
indifference” standard. See White v. Napoleon, 897 F.2d
at 113; and compare Norfleet, 439 F.3d at 396; Sain v.
Wood, 512 F.3d at 895.3

3

A later California District Court case, Lyons v. Traquina,
No. CV-06-2339RT, 2010 U.S. Dist. LEXIS 78527, 2010 WL
3069336 (E.D. Cal., August 3, 2010), involved a Fourteenth
Amendment “informed consent” claim asserted under factual circumstances that were nearly identical to those in Petitioner
Knight’s present case. The California District Court upheld summary judgment in the Lyons case, and in doing so, made no reference to Benson, nor to any “balancing test” that purported to
require the weighing of the state’s interests versus the patient’s
right to information.

31
The final case relied upon by the Petitioner in support of his contention that an alleged “circuit split” exists relative to the standard governing a patient’s right
under the Fourteenth Amendment to information sufficient to allow that patient to knowledgeably exercise
his right to refuse medical treatment is the Tenth Circuit case of Bee v. Greaves, 744 F.2d 1387 (10th Cir.
1984). The plaintiff in that case was a pretrial detainee
who alleged that he was administered an antipsychotic
drug, Thorazine, against his will while he was being
detained prior to his criminal trial. The issue presented to the Tenth Circuit in Bee v. Greaves was
whether a pretrial detainee has a constitutional right
to refuse treatment with antipsychotic medications.
The Tenth Circuit concluded that a mentally ill pretrial detainee does have a liberty interest derived from
the constitution in avoiding unwanted medication with
psychotropic drugs. Bee v. Greaves, 744 F.2d at 1394.
The Bee case is not an “informed consent” case.
The patient in Bee never alleged nor claimed in any
way that he had not been provided information about
the drug Thorazine or its side effects sufficient to
allow him to knowledgeably exercise his right to refuse medical treatment. The patient was well aware
of the disabling side effects of the drug – indeed, he
had personally experienced them – which caused him
to refuse the medication in the first instance. Id. at
1390.
The Tenth Circuit, in Bee v. Greaves, was never
faced with the need to articulate or adhere to a formal
standard or “balancing test” to govern consideration of

32
a patient’s right under the Fourteenth Amendment to
information sufficient to allow that patient to knowledgeably exercise his right to refuse medical treatment. A patient’s right to medical information under
the Fourteenth Amendment was never at issue in Bee
v. Greaves. That case cannot serve as an example of circuit discord, as Petitioner contends, on the standard
governing a patient’s informed consent right under the
Fourteenth Amendment.
An analysis of the cases cited by Petitioner from
the Third, Fourth, Fifth, Ninth, and Tenth Circuits reveal that they simply do not support his position that
a “circuit split” exists on the issue of the standard applicable to a patient’s right under the Fourteenth
Amendment to information sufficient to allow that
patient to knowledgeably exercise his constitutional
right to refuse medical treatment. There being no “circuit split” to justify this Court’s intervention, the Court
should deny certiorari.
------------------------------------------------------------------

33
CONCLUSION
For the reasons set forth above, the Court should
deny Petitioner DeWayne Knight’s Petition for Certiorari.
Dated this 17th day of June, 2020.
Respectfully submitted,
JASON J. FRANCKOWIAK
Counsel for Respondent
Dr. Thomas Grossman, Jr.
20935 Swenson Drive
Suite 310
Waukesha, WI 53186
(262) 777-2200
jfranckowiak@otjen.com

